INSPECTon GF,NERAL

                                                                    IC-X-041




UNITED STATES INTERNATIONAL TRADE COMMISSION

                         WASHINGTON, D.C. 20438
   September 29,2000

  TO:

   mOM:

   SUBJECt:
                 Chairman

                 "'.,., Inspector C,.",I    '\   ':2-
                 Inspection report 0IG-IR-03:0,1 dependent Evaluation
                 of Electronic Document Imaging System (Review of Business
                 Case and Assessment of Cost-Benefit Analysis)

   The Office of Inspector General (OIG) has completed the above referenced
   Inspection. The final report on this inspection is attached.

   We would like to thank all of the Offices and Commissioners who provided
   comments, includ ing verbal comments, on the d raft of t his report.

   There is a need to clear up some misunderstandings about the OIG
   positions and advice. Our advice in regards 10 the Government Paperwork
   Elimination ACI (GPEA) has always been about trying to maximize
   administrative efficiencies so as to free our human capital resources to
   concentrate on their mission. Never has our advice been about IT for the
   sake of IT. Our most important asset will always be the ind ividuals who are
   ultimately responsible for the Commission's work product. The goal is to
   remove administrative inefficiencies so these individuals, whether
   Commissioners, investigators, analysts or attorneys, Can concentrate on
   their work. Document intake, internal and external document distribution,
   document maintenance, document indexing, and research are ripe areas for
   improvement considering the middle of the road (not cutting edge) IT that
   is available today.

   In general, several offices commented that they had concerns regarding
   OIG's emphasis on a paperless ITC and indicated that, for various reasons,
   paper will be with the Commission for a long time. Additionally, we were
   reminded that some of the documents filed with the Commission have
   been previously filed with agencies such as Patent and Trademark Office.
   OIG recognizes there will always be a need for a residual scanning
   capability for hardship cases and miscellaneous items.
We agree that the convenience of paper will be with us for a long time, but
management and delivery of documents in their paper form will not,
because it is not cost effective. It is possible that documents electronically
filed with the Commission could be electronically routed to the proper
Commission offices and only printed or sent to an offices local printer on
command. Current IT initiatives at the IRS, SEC, FCC, Patent and
Trademark, CIT, rDA, Postal Service, and State and Federal Courts are an
indication that the OIG is not an extreme visionary or a trailblazer in
regards to these concepts.

However, the Commission's intent should be clear as to whether it is
procuring a system for today or a system for the future. Given that the
Patent and Trademark Office and other federal agencies are moving
towards mandatory electronic filing, it would not make practical sense for
parties to submit their documentation electronically to these agencies and
in paper to the Commission for scanning. In that environment, it is
conceivable that a good portion of those records would be electron ically
filed with the Commission, thus diminishing our need for duplicative
scanning. A good barometer for the level of scanning ability we will need in
the future could be ascertained [rom other agencies that have offered or
mandated electronic filing. In regards to miscellaneous items, we note the
need to scan these miscellaneous items will diminish in the near future as
well. For example, Postal Service initiatives allow for postal return receipts
to be obtained real-time and electronically by the sender.

In general, the Director of Operations commented that we are overselling
GPEA. We understand GpEA implementation can be as meaningless or
meaningful as the Commission decides. However, that is a business
decision that should be based on sound foundations of knowledge of our
rapidly changi ng environment.

How did we incorporate comments in the final Report?

In terms of the general comments offered by the OSE, Operations and
Director of Administration, we made no changes to our report. We
summarized their general comments and our rationale for not incorporating
those comments on pages 2 to 4 in our final inspection report. Where their
memoranda offered specific comments we made a number of changes. The
General Counsel offered specific language changes that helped clarify the
report and we accepted all of those comments.

We note the OIG sits in the luxurious chair of the Monday morning
quarterback in regards to this report and the criticisms of the RFP. In
regards to the RFP, the Commission has already received the contractor
responses. Thus the OIG, in conducting its review, was able to easily
ascertain how the IT community interpreted the RFP. For instance, one of
                                      2
the contractors stated in their response that one ohjective of the project
was to "[I' jrovide the technical foundation for the Commission to move
from paper-centric document operation to an all-electronic information
exchange environment." !f the Commission has come to some sort of
consensus that it is in the taxpayers' interest to invest in the "foundation,"
shouldn't we know or try to ascertain what the house is going to look like?
III addition, do we need the foundation we requested in terms of size, if
some proportion of filings will be received electronically? More importantly
is it better to buy the whole house now and how much should that cost?

These questions would seem appropriate to answer, given the considerable
efforts other government institutions are making to lessen their dependence
on paperwork processing. It may be useful for the Commission to seek a
greater understanding of these other efforts in order to gain insight into
how paperless the Commission could be in the future. Such understanding
may also lead to opportunities for leveraging taxpayer dollars by bu ild ing
upon work already done.

As always, our office is available to assist the Commission upon a request.
Thallk you for your attention.

Attachment

cc:    Commission
       Office Directors




                                      3
             OFFICE OF INSPECTOR GENERAL




 Independent Evaluation of Electronic Document Imaging System
(Review of Business Case and Assessment of Cost-Benefit Analysis)


                       Inspection Report
                         OlG-IR-03-00




                                                September 29,2000
                              Independent Evaluation of EDIS II
                 (Review of Business Case and Assessment of Cost-Benefit Analysis)




I.       BACKGROUND

The Office of Inspector General initiated this Inspection in August 2000 at the request ofthe Chairman ofthe
Information Resources Steering Committee (IRMSC). The purpose of this Inspection was to assess the
validity of the Cost-Benefit Analysis (CBA) submitted to the IRMSC to support a decision on replacing the
current EDIS system. To assist in conducting this Inspection, OIG contracted with Computer Sciences
Corporation (CSC) to perform an independent evaluation of the EDIS CBA.

CSC conducted its evaluation in two phases. The first phase was based on a brief review of the documents
prepared to justify the acquisition ofEDIS II, including the project proposal and Information Technology (IT)
Investment Review form. The first CSC report (Attachment I) provided a high-level evaluation ofthe USITC
IT strategy and the methodology and scope ofthe project proposal as well as a review ofthe data presented in
the project proposal. The first reporl recommended a second, larger phase that would apply a business-case
approach, including an analysis of alternatives and a more complete evaluation ofthe benefits and costs ofrhe
EDIS II project The OIGsubsequently directed CSC to proceed with the second phase limited to evaluating
the original EDIS CBA, conducting an independent Benefit-Cost Analysis (BeA) considering additional
alternatives, and preparing a report documenting findings.

Very early in the second phase of its effort, ese concluded that it could not validate the cost and benefit
estimates used in the original esA. Accordingly, OIG agreed that esc could use these original estimates,
but should perform only a sample BCA to illustrate the methodology. The report on the second phase
incorporating this sample BeA and CSC's other findings is contained in Attachment II.

n.       CONCLUSIONS

Based on the ese analysis we conclude that the CBA provided to the IRMSC is deficient for the
following reasons:

     I) The CBA did not provide a credible basis for its estimates of costs and benefits for EDlS. In some
        cases, eBA estimates were found to be at variance with estimates contained in tbe RFP.
     2) The eBA did not consider the operating costs associated with EDIS.
     3) Assumptions and constraints regarding cost savings were not adequately justified or documented.
     4) The eBA did not use discounting offuture costs and benefits as provided by OMB Circular A-94 and
        in accordance with standard practice.
     5) The eBA did not consider alternatives to the proposed EDlS·!! solution, as provided by OMB
        Circular A-94. In particular, the eBA did not consider an all-electronic filing and distribution
        alternative that would fully meet tile intent ofthe Government Paperwork Elimination Act (aPEA) of
        1998.
                                                                                                OIG·IR-03-00

III.    SUGGESTED ACTIONS

In view of these observed deficiencies of the CSA, it is suggested that the Commission conduct a new SCA
that conforms to the methodology provided by OMS Circular A-94 as illustrated in Attachment II. The new
BCA should use estimates that can be realistically justified by documented analysis. The new BCA should
consider all applicable costs of EDIS, including personnel costs. The new BCA should also include
alternatives consistent with the Commission's plan to comply with GPEA (This plan is due to OMB by
October 31,2000).

The Commission should also consider whether to cancel or amend the currentEDIS II RFP. The current RFP
is heavily weighted toward upgrading the current scanner-centered process. It is possible that the new DCA
as well as the Commission's GPEA plan may suggest an EDIS alternative more heavily weighted toward all-
electronic filing and distribution of documents. In such case, the Commission may want to issue a new or
amended RFP, or perhaps determine whether the proposals received in response to the current RFP are
sufficiently flexible to accommodate a changed emphasis.

A final suggestion is that the IRMSC consider issuing guidance on the proper methodology to be used in
evaluating the Commission's IT investments. Such guidance can draw upon the guidance provided in OMB
Circular A-94 and the lessons learned from the EDiS DCA as documented in the attachments.

IV.     COMMENTS FROM OTHER OFFICES

A draft of this report was circulated to members of the IRMSC and Commissioners tor comment.

The General Counsel offered several comments that clarified language contained in the draft report. All of
the General Counsel's comments were incorporated. The Director ofAdministration provided comments and
generally agreed with the findings ofthe report. We incorporated his comments as appropriate.

The Director of Information Services commented that several findings of the draft report reflect the
immaturity ofthe Commission's relatively new investment review process, but that in his opinion investment
in EOIS II is the correct decision. In general, he did not agree with the findings ofthe report. Specifically, he
did not agree with our analysis of the EDIS Ii proposal's compliance with GPEA or that the project is too
conservative in its goals to implement GPEA. In contrast. he agreed with the need to complete the IRM Plan
and a GPEA Plan and the need (0 resolve issues regarding the CIO position. We agree with the comment that
the Commission's relatively new investment process contributed to some ofthe findings contained in the draft
report. However, we made no changes to the drat! report based on his comments.

The Office of the Secretary (OSE) provided several general and specific comments. We made no changes
based on OSE's general comments. One general comment was that some benefits may be stated as equivalent
values in contrast to how we used values based on assigning a relative weight of importance and comparing
to measurable benefits. For instance, OSE estimated the benefit ofa user-friendly interface was equivalent to
a yearly subscription to Lexis-Nexis. We agree with the concept that benefits may be slated in equivalent
value where there is a clear relationship, but disagree that a yearly subscription to Lexis-Nexis is a proper
equivalent for the benefit of a user-friendly interface. The value of Lexis-Nexis relates to its content, not
whether or not it provides a user-friendly interface.


                                                       2
                                                                                               OIG-IR-03-00

OSE points out that some decisions are not cost/benefit driven and the report is not clear in that regard. We
agree with their first point. However, our report clearly empbasizes the need to comply with GPEA and PL
101-569 even though such compliance mayor may not bejustified on a cost/benefit basis. We have never
maintained that the decision on this project should be made solely on the results of the benefii-cost analysis.
However, we see an important management need to provide a complete business case that includes a benefit-
cost analysis, among other business related elements.

OSE commented that they had concerns regarding OIG's emphasis on a paperless ITC and that for various
reasons paper will be with the Commission for a long time. Additionally, they commented that some of the
documents filed with the Commission have been previously tiled with agencies such as Patent and Trademark
Office. We recognize there will always be a need for a residual scanning capability for hardship cases and
miscellaneous items. We agree that the convenience of paper will be with us tor a long time, but management
and delivery ofdocuments in their paper form will not because it is not cost effective. It is quite conceivable
that documents electronically tiled with the Commission can be electronically routed to the proper
Commission offices and only printed or sent to an office's local printer on command. Current l'I' initiatives at
the IRS, SEC, FCC, Patent and Trademark, FDA, Postal Service, and State and Federal Courts' are an
indication that the OIG is not an extreme visionary or a trailblazer in regards to these concepts.

                                                                                                    0'
However, the Commission's intent should be clear as to whether it is procuring a system for today a system
for the future. Given that the Patent and Trademark Office and other federal agencies are moving towards
mandatory electronic filing, it would not make practical sense for parties to submit their documentation
electronically to these agencies and in paper to the Commission for duplicative scanning. In that
environment, it is conceivable that a good portion of those records would be electronically filed with the
Commission, thus diminishing our need tor duplicative scanning. A good barometer for the level of scanning
ability we will need in the future could be ascertained from other agencies that have otfered or mandated
electronic filing. In regards to the need to scan miscellaneous items, we note the need to scan these
miscellaneous items will diminish in the near future as well. For example, postal return receipts can be
obtained real-time and electronically by the sender.

OSE offered additional specific comments, which we incorporated as appropriate. Some of the specific
comments related to our analysis of the Business Case contained in Attachment I, Appendix A. Wenote that
the review was from the perspective of what was in the Business Case presented to the IRMSC. Appendix A
indicates whether the Business Case addressed the listed question; it does not provide the answer to the
question.

The Director of Operations also submitted comments on the draft report. He agreed with the suggested
actions in section III above, with some reservations. Many of his otber comments related to disagreement
with conclusions reached. We did not incorporate any of these comments, since the entire purpose ofthis
exercise was to obtain an independent assessment based on available facts. Two specific comments that were
incorporated related to authorship of the RFP and correction of an error in distinguishing between the
Strategic Plan and the IRM Strategic Plan.

In his comments, the Director of Operations stated, "you are overreaching in your characterization of the
significance ofthe EDIS project and ofGPEA." We disagree with this comment. By automating the current
paper-centric filing and investigation process, the Commission will become more efficient and thereby free
up its human resources to spend more time 011 higher-level tasks such as planning, evaluating and innovating.
                                                       3
                                                                                            0IG-IR-03-00

It is this redirection of human capital and potential that will allow a significant improvement in the
Commission's work product.

The Director of Operations also cited several ongoing or completed IT projects as evidence that the
Commission is implementing a successful IT strategy. As the report points out, however, there is no overall
plan that defines the Commission's strategic objectives for IT and how these objectives are to be achieved.
Without such an integrated plan it is hard to determine whether the piecemeal IT projects the Commission has
been pursuing are leading in the right direction toward attainment of the Commission's strategic objectives.

The Director of Operations disagreed with the conclusion that the Commission does not have a well-defined,
well-documented process to guide the Commission's IT investment decisions. However, the conclusion is
well founded given the documented shortcomings of the EDIS 1\ business case and some of the concerns
raised by other members ofthe IRMSC. We also noted that OSE received little guidance On how to prepare
the Business Case fOT EDIS 1\ The absence of an IT Strategic Plan also supports the conclusion.

Attachments:    I - Review of Business Case
                11- Review and Assessment of the Benefit-Cost Analysis for EDIS 11.




                                                     4
Attachment I-Review ofBusiness Case                               OIG-IR-03-00




                                      Attachment I
                                 Review of Business Case

                                  TABLE OF CONTENTS

                                                                  Page

   I.      Introduction                                           1-1

   II.    Objectives                                              I-I

   Ill.    Scope                                                  1-1

   IV.    Methodology                                             [-2

   V.     Observations and Findings                               1-3

   VI.     Implications/Conclusions for Study Objectives          1-4

   VII.   Suggested Next Steps                                    [-5


   Attachment I-Appendix A- Attributes ofEffecuve Business Case   l-A-l
Attachment I-Review ofBusiness Case                                                        OIG-IR-03-00

I.         INTRODUCTION

The United States International Trade Commission (USITC) has decided to replace its Electronic Document
Imaging System (EDrS). Accordingly, the USITC has issued a Request for Proposal (RFP) for a replacement
system, referred to as EDIS II. To justify the acquisition of EDrS II, a project proposal and Information
Technology (IT) Investment Review form (hereafter referred to as {he Business Case) were prepared and
submitted to the IRM Steering Committee (IRMSC) for approval. The lRMSC, although not approving the
business case, approved proceeding with a solicitation for an EDIS II replacement procurement. A request for
proposal (RFP) was prepared and issued on July 5, 2000, with offers due on July 28, 2000 (subsequently
extended to August 4, 2000)

To assess the completeness and validity of the Business Case, the Office of Inspector General engaged
Computer Sciences Corporation (CSC) to perform a review and assessment of the Business Case, esc
proposed a two-step process.

Step One (Attachment I) consists of a review ofthe USITC IT strategy and methodology and scope of the
Business Case as well as a high-level review of the data it presents. In Step Two, (Attachment II) CSC
evaluated the original EDIS Cost-Benefit Analysis, conducted an independent Benefit-Cost Analysis
considering additional alternatives, and prepared a report documenting findings.

This report, Attachment I, documents CSC's observations and findings based on the Step One review of the
Business Case. The report is organized into the following sections:

       •   Objectives
       •   Scope and Methodology
       •   Preliminary Observations and Findings
       •   Recommended Next Steps
       •   Appendix A-Atll'ibutes olEUeclive Business Cases.

II.        OBJECTIVES

       •   Detenninc if the proposed replacement EDIS meets the intent of the Government Paperwork
           Elimination Act (GPEA)
       •   Evaluate the proposed replacement EDIS with respect to degree of automation and the extent to
           which it is web-based
       •   Assess the proposed replacement EDIS within the context of the USITC IT strategy
       •   Assess the completeness of the benefits stated in the Business Case

III.       SCOPE

The study encompassed the review of these documents: I.} Functional Requirements for an Electronic
Document Imaging System at the USITC (October 1999); 2.) Functional Requirements Matrix fOT EDIS
Replacement System (undated); 3.) Project Proposal and Evaluation (undated); and 4.) RFP for Electronic
Document Imaging System (EDrS-Il) for the USITC (July 5, 2000).

                                                     1-1
Attachment I-Review ofBusiness Case                                                          OIG-IR-03-00

IV.     MF:THODOLOGY

To perform the study, CSC reviewed the documents cited in the SCOPE section, met with the Acting
Inspector General and interviewed the Deputy Secretary. The meeting with the Acting Inspector General was
to obtain direction and guidance regarding the objectives and scope of the study and to gain an understanding
ofthe strategic context within which the acquisition is taking place. The Deputy Secretary was interviewed to
gain a dearer understanding of the methodology employed and process followed by the authors of the
documents reviewed. By virtue of her role as an EDIS user, she provided valuable insights into day-to-day
operations as well.

To assess the completeness and validity of the Business Case, CSC developed a chart (Appendix A)
displaying key attributes of effective business cases as defined by the memorandum from the OMB Director
dated October 25, 1996, "Funding Information Systems Investments" (Raines' Rules) and other applicable
ruJes and legislation such as OMB Memorandum M-97-02, "Principles of Budgeting for Capital Asset
Acquisitions", the Clinger-Cohen Act of J996 and the Government Results and Performance Act.

Key Assumptions

CSC's findings rest on the following assumptions regarding business cases supporting IT investments for
agencies and commissions oftbe Federal Government:

            •   A Business Case is a structured proposal for business improvement based on business and
                functional requirements that serve as a decision package for key executi ves. In all instances,
                a business case establishes a baseline from which to monitor, measure and evaluate the
                improvement and includes documentation of business process performance and associated
                needs or problems, proposed alternative solutions, assumptions constraints, and a risk-
                adjusted return on investment.
            •   A properly-developed business case should a.j justify the selection of the proposed asset in
                the context of the mission and vision; b.) verify funding availability and demonstrate
                compliance with sound principles of financing, and c.) define cost, schedule and
                performance goals and identify the strategies for achieving them through risk mitigation.
            •   A good business case answers three questions very clearly: 1.) What is the proposed
                investment"; 2.) What are we trying to do with it and why?; 3.) How does the proposed
                investment make good business sense?

CSC then assessed the usrTC business case against the attributes contained in the chart (Appendix A) and
applied the above assumptions to the data collected through meetings and interviews to arrive at the
preliminary observations and findings.

Due to the short timeframe allocated for Step One, the Findings and Observations identify shortcomings,
gaps and deficiencies only. The teader can assume that esc found that the business case addressed all
unmentioned areas satisfactorily.




                                                     1-2
Attachment I-Review of Business Case                                                        OIG-IR-03-00

V.       OBSERVATIONS AND FINDINGS

Based on the review of the Business Case and supporting documentation and the meeting with the Acting
Inspector Genera' and interview with the Deputy Secretary, esc gained an understanding of the strategic
context for the proposed IT investment, some of the major issues around the acquisition and insight into the
methodology employed to derive the benefits expected to be achieved as a result of implementing EDIS II.
We then compared the information we gained to our assumptions regarding the element, components and
attributes of effective business cases to develop our observations and findings, organized as follows:

     •   Overall Observations and Findings
     •   Specific Observations and Findings
     •   Implications/Conclusions for Study Objectives

Overall Observations and Findings

Lack of an overall IT vision makes it difficult to assess the appropriateness of the IT investment in a
strategic context.
    • The IT strategy or vision is an incomplete draft.
    • The USITC does not have an office of the cia to provide IT leadership and serve as the Chief
        Technologist.
    • The IS function is dispersed across several organizational units.
    • These factors contribute to the lack of complete agreement regardi ng the design/functionality of
        EDlS II.

The lISITC did not consider the acquisition of different, emerging technologies to address its
requirements.
   • The intent ofthe business case is to justify a replacement for EDIS I by more efficient and effective
       imaging technology.
   • The RFP calls out a requirement for electronic capability (para 11-5-7) but clearly slates the goal of
       procuring an upgraded version of the current technology (para 11-4.0).
   • The requirement for a web interface is stated as a continuation of the current capability (para 11-5.6).
   • EDIS II would utilize scanners, suggesting a continuation of paper submissions.
   • No forecast of increased volumes of electronic submissions and a corresponding decrease in paper
       submissions was developed.
   • Evaluation of alternative solutions, that could potentially bring greater benefits and align more
       closely with the all-electronic goal of e-governrnent, were not documented.

Key stakeholders are not aligned around the proposed EDIS II acquisition
   • Paper versus electronic submission appears to remain an open issue.
   • Different points of view around the best technology solution have yet to be reconciled.
   • Proceeding with the procurement as is could result in a prolonged, costly implementation of what
       could be a technologically obsolete solution.



                                                     1-3
Attachment I-Re"iew ofBusiness elise                                                         OI(;-IFt-03-CHl


The Business Case omitted potential cost savings in its benefits calculation.
   • The impact on printing operations was not considered completely.
   • All areas of operations that interface with EDIS I were in all likelihood not reviewed with a view
      toward elimination or reduction in level of effort.
   • Examples include work-arounds put in place to compensate for the shortcomings ofEDtS t and other
      feeder processes to EDIS I

Specific ObservatiQn1i--"nd Finl!ings
   • The Business Case does not meet the requirement of delivering a decision package to USITC
        leadership.
   • The Business Case does not contain an adequately-documented baseline of current business process
          performance.
      •   Alternative solutions were not addressed in the Business Case.
      •   Assumptions and constraints were not stated.
      •   Because acquisition and O&M costs were not factored in 10 the benefits calculation, no return-on-
          investment (ROl) is presented.
      •   The impact of the new system on the USITC operating model was not assessed.
      •   The USITC does not have a track record of successfully implementing IT investments ofsimilar size
          and complexity.
      •   The analytic techniques used to determine benefits were not described.
      •   The period of performance was left to the bidders to determine.

VI.       IMPLICATIONS/CONCLUSIONS FOR STUDY OBJECTIVES

Objective 1:      Determine ifthe proposed replacement EDIS meets the intent ofthe Government Paperwork
                  Elimination Act (OPEA).

Discussion:       aPEA requires Federal agencies to allow individuals or entities that deal with the agencies
                  the option to submit information Or transact with that agency electronically and to maintain
                  records electronically by Octoher 21,2003.

§onclugo!1.:      Because of the wording of GPEA. the replacement EDIS in all likelihood does meet
                  some ofthe requirements of (;PEA. One concern is the capacity ofthe system to meet
                  potential volumes of electronic submisslons, since these were not planned for or
                  forecasted.

Obiective~:       Evaluate the proposed replacement EDIS with respect to degree ofautomation and the extent
                  to which it is web-based.

Conclusion:       EDIS II will be an updated version ofthesame imaging and technology employed by
                  EDIS L The web capability for EDIS II appears to be identical to EDIS L No
                  alternative technulogics were considered based on the data ubtained by CSc. EDIS II
                  mayor may not be the best technology solution for tbe USITC requirement.

                                                      (·4
Attachment I-Review ofBusiness Case                                                         OIG-IR-03-00




Objective 3:    Assess the proposed replacement EDIS within the context of the USITC IT strategy.

Conclusion:     The assessment could not be made because there is no llSrrC IT strategy. There is risk
                associated with going forward witb EDIS II in the absence of an USITC IT strategy.
                There are at least two potential outcomes: first, EDIS II could he what determines the
                IT strategy (the tail wagging the dog), resulting in a strategy by default: second, when
                an IT strategy is developed, EDIS II may not be aligned to it, leading to a premature
                decommissioning and/or expensive acquisition of a needed state-of-the-art technology
                such as a Knowledge Management portal organized around key words using an XML
                vocabulary.


Objective 4:    Assess the completeness of the benefits stated in the Business Case.

Conclusion:     The Cost-Benefit Analysis should be revised. Costs were not factored into the business
                case; therefore, no ROI calculation was presented. In addition, not all potential cost
                savings were documented.


VII.    SUGGESTED NEXT STEPS
        • Design and facilitate a process to create a consensus-driven IT strategy for the USITC.
        • Recommend an IT organizational design that would position the USITC to better leverage
           emerging technologies
        • Revise the Business Case to include:
              o Alternative technologies to electronic imaging and To-Be architecture of preferred
                  solution
              o A complete baseline ofcurrent business performance as measured by time, quality and
                  cost
              o A complete Benefit-Cost Analysis




CSC was pleased to have the opportunity to prepare this study for the Office of Inspector General. We
recognize that the short timeframe allottedto complete the study required our efforts to focus on identifying
gaps and deficiencies in the USlTC business case. More time would have enabled us to highlight the many
excellent qualities of the business case that would have better recognized the hard work that went into its
preparation.




                                                     1-5
Attachment I-Appendix A-Attribute,' of Effective Business Case                             0IG-IR-03-00

To interpret the chart that appears on this and the following two pages, pose the question "Does the USITC
Business Case address, include or otherwise satisfy the stated attribute?" As a means of ensuring fairness
given the brief nature of the study, in borderline cases CSC determined that the Business Case satisfied the
attribute in question,




      I. Business need, functional requirements & possible business solutions               y
         identified?

      2. Technical options and possible alternative solutions explored?                     N

      Compliance with "Raines' Rules" determined (3.0-lOp
      3. Does the project support a governmental function"                                  y

      4. Could the function be outsourced?                                                  N

      5. Does it support work processes that have been simplified/utilize COT?              N/Y

      6. Show adequate ROl?                                                                 N

      7. Consistent with USITC information architecture?                                    y

      8. Reduce risk"                                                                       y

      9. Implemented in phases?                                                             y

      10. Employ effective acquisition strategy?                                            y

      11. Compliance with strategic vision determined?                                      N

      12. Impact on other initiatives determined?                                           N

      13. Funding & other resources availability determined?                                y

      14. Legislative requirements determined?                                              Y

      15. Buy-in and support of key stakeholders obtained?                                  N

      16. Baseline of current operating performance established"                            N

      17, Assumptions and constraints stated?                                               N

      18. Risk-adjusted return on investment included?                                      N

      19. Schedule of benefits described?                                                   Y

      20. Staff savings presented as FTEs?                                                  N

      2 I. Future workloads identified?                                                     N


                                                    I-A-I
Attachment l-Appendix A-Attributes of Effective Business Case                              OIG-IR-03-00

     22. Benefits claimed by other initiatives excluded?                                    Y

     23. Impact on operating; model assessed?                                               N

     24. Non-financial benefits identified?                                                 N

     25. Business value assessed?                                                           Y

     26. Investment costs defined?                                                          N

     27. Operations & maintenance costs (O&M) defined')                                     N

     28. Impact on personnel. organizations and quality of worklife assessed?               Y

     29. Implementation schedule developed?                                                 N

     30. Was the business case fully coordinated among stakeholder organizations
         before being; presented to the IRM Steering Committee?                             N

     31. Is there adequate documentation to support all statements?                         N

     32. Are there unsupported assertions?                                                  Y

      33. Does the business case clearly articulate the overall need for the investment?    Y

      34. Do functional requirements include:

      35. A definition of the common usages of the function?                                Y

      36. The ranking of each requirement in order of importance?                           Y

      37. Is linkage to mission, objectives and strategic goals shown?                      Y

      38. Does the business case indicate that business processes will be re-engineered
          before the IT investment is made?                                                 N

      39. Are major cost drivers identified?                                                Y

      40. Are analytic techniques used to define costs/benefits described?                  N

      41. Does the amount of the investment differ from the budget?                         N

      42. If there is a difference, is the difference explained?

      43. Does the case describe how hardware costs were estimated?                         N

      44. Does the case describe how software costs were estimated?                         N

      45. Were costs for adequate software testing included?                                N

      46. Does the case describe how site preparation costs were estimated?                 N


                                                     I-A-2
Attachment I-Appendix A-Attributes oj Effective Business Case                             OIG-IR-03-0(}

     47. Has the USITC successfully managed previous IT investments of similar risk
         and complexity?                                                                   N

     48. Does the case clearly articulate any significant schedule and technical risks?    N/Y

     49. lias the IS organization assessed conformance with the IT architecture?           Y

     50. Does the case describe how performance will be tracked and reported?              N

     5]. Will the project be executed in well-defined phases?                              Y

     52. Have the major critical path activities been identified?                          N

     53. Is the project schedule aggressive?                                               N/A

     54. Is the acquisition strategy clearly defined?                                      Y

     55. Was emphasis placed on generating innovation and competition from
         industry?                                                                         N/Y

     56. Were dependencies/linkages to other projects shown?                               N




                                                   I-A-3
Attachment 11- Benefit-Cost Anatysis                                       OlG-IR-03-00


                            Attachment II
     Review and Assessment of the Benefit-Cost Analysis for EDIS II


                            TABLE OF CONTENTS

                                                                                 Page

l.      Introduction                                                             II-I

[(      Objective                                                                II-I

Ill.    Scope And Methodology                                                    11-2

IV,     Findings                                                                 11-4

        A. The USITC's Current Document Processing Business Environment          11-4

        B. Validation of Initial Proposal with Current Operational Cost Data     11-6

        C. Methodology Applied to Benefit-Cost Analysis                          11-8

        D, Compliance of EDlS II with aPEA and Rehabilitation Act, Sect. 508     II-II

V.      Conclusions                                                              II-I5

VI.     Suggestions for Management Consideration                                 Il-I6

Attachment II - Appendix A-Sample Benefit - Cost Analysis Methodology            II-A-1
Attachment II- Benefit-Cost Analysis                                            OIG-IR-03-00




I.      INTRODlJCTION

In May 2000, the IRM Steering Committee (IRMSC) of the United Slates International Trade
Commission (USITC) received a project proposal for an Electronic Document Imaging System
(EDIS) replacement project. Documentation was provided to address how the proposed
information technology investment would support the agency's strategic goals and whether it
represented the most efficient and effective lise of available Information Technology (IT)
resources. Upon IRMSC approval to proceed with a solicitation for an EDIS II replacement
procurement, a request for proposal (RFP) was prepared and issued on July 5, 2000, with offers
due on July 28, 2000 (subsequently extended to August 4, 2000).

Computer Sciences Corporation (CSC) conducted its evaluation in two phases. The first phase
was based on a review of the documents prepared to justify the acquisition of EOIS II, including
the project proposal and IT Investment Review form. The first CSC report (Attachment I)
provided a high-level eval uation of the USITC Information Technology strategy and the
methodology and scope of the project proposal as weil as a review of the data presented in the
project proposal. The first report recommended a second step of analysis applying a business-case
approach that would include an analysis of alternatives and a Benefit-Cost Analysis of the EOIS
II project. The OIG subsequently directed CSC to proceed with the second step limited to
evaluating the original EDIS Benefit-Cost Analysis, conducting an independent Benefit-Cost
Analysis considering additional alternatives, and preparing a report docu menting findings.

The OIG noted there is a potential of dramatically improving business processes for the Office of
the Secretary and the USITC as a whole. Additionally, technology investments in this area could
be a crucial part of assisting the USITC in implementing and complying with the Government
Paperwork Elimination Act (GPEA). Therefore, CSC was also directed to review the EOIS II
procurement in light of GPEA, as well as Office of Management and Budget (OMB) guidelines
for conducting economic analysis of proposed government investments.

II,     OBJECTIVE

The objective of the Inspection was to perform a comprehensive review of the Benefit-Cost
Analysis of the EDlS II project proposal and formulate appropriate recommendations. CSC was
also asked to provide some general guidance on how to conduct Benefit-Cost Analysis of
Information Technology investment projects. The review provides a sample Benefit-Cost
Analysis that considers other possible alternatives to EDIS. This sample analysis is provided to
illustrate the proper methodology for conducting benefit-cost analyses. The report also assesses
how the EDlS II proposes to take into consideration GPEA and other legislation regarding
investments in infonnation technology.




                                              H-I
Attachment 11- Benefit-Cost Analyst.                                              OIG-IR-OJ-OO


III      SCOPE AND METHODOLOGY

The scope of the review of the EDIS II project focused on meeting the objectives defined in the
August 2,2000010 memorandum to the IRMSC, USITC Commissioners and senior staff Based
on the preliminary findings developed in the initial phase, this review includes: validation of the
data used in the EDIS II project proposal, an effort to establish a baseline of current EDIS
performance in tcrms of time, quality and cost, an assessment of the impact of a replacement
system on business operations, and development of a revised sample Benetit-Cost Analysis using
OMB guidelines, Time limitations and the limited availabil ity of baseline data allowed only a
sample Benefit-Cost Analysis.

During this phase of the study, CSC conducted interviews to gather information with key EDIS
stakeholders who could provide additional qual itative and quantitative information about the
current EDIS processes and desired EDIS II outcomes. The persons interviewed included the
USITC Secretary, USITC Deputy Secretary, and USITC Director of Office of Information
Services (OTS).

CSC reviewed a number of EOIS II-procurement-related documents including statutes, OMB
guidelines, and usrrc strategic planning documents, as follows:

•     Public Law (P.L.) ]05-277, Government Paperwork Elimination Act (OPEA), signed October
      21, 1998

•     Information Technology Management Reform Act (ITMRA) of 1996, also known as the
      Clinger-Cohen Act
•     P.L. 103-355, Government Performance and Results Act (GPRA) of] 993
•     OMB Circular No. A-94 Revised, Guidelines and Discount Rates for Benefit-Cost Analysis
      of Federal Programs, October 29,1992.
•     Ibid; Appendix C "Revised Rates for Cost-Effectiveness, Lease Purchase, and Related
      Analyses" page 18. Revised January 2000.
•     OMB Memorandum on Funding Information Systems Investments, (Raines' Rules),
      Establishes lTMRA-related decision criteria and implementation guidelines for evaluating
      Information Technology investments, October] 996.
•     USITC Strategic Plan lor Information Resources Management for Fiscal Years 2001-2005,
      (Draft version dated July 4, 2000)
•     USfrC Technology Review Committee Memorandum to IRMSC. Subject: Project Proposal
      for IRMSC Review-ED IS Replacement - Phase II, May 2, 2000.

•     Solicitation No. ITC-RFP-00"GG02 issued July 5, 200G. Electronic Document Imaging
      System (EDIS II)

•     IRS Investment Decision Management Business Case Procedure, June 30,2000. Appendix A,
      Economic Analysis Techniques. Prepared by Computer Sciences Corporation, IRS PRIME
      Alliance Contract.



                                                 11-2
Attachment 11- Benefit-Cost Analysis                                           OIG-IR-03-00



The methodology used in this Benefit-Cost Analysis is based on standard business analysis
techniques and esc consulting best practice. The basis of the methodology is present value
analysis, which is among the most effective ways to compare costs and benefits. After present
value benefits and present value costs are calculated, the Net Present Value (NPV) of an
alternative is calculated and used as the basis tor comparing it to all other alternati ves.

This standard approach has been adapted to meet OMB Circular A-94 guidelines for Benefit-Cost
Analysis of Federal programs and business case preparation for Information Technology
investments. For this study, OMB guidelines were tailored in consideration of the duration and
scope of the EDIS II evaluation as well as the type and size of investment

An analysis of possible EDIS alternatives was performed with the purpose of presenting a sample
of the benefit-cost approach that can generally be used in developing a more comprehensive
business case for Information Technology investments.

Appendix A provides a description of the methodology used by CSC including formulas for
calculations and definition of terms used for this Report Appendix A also provides a Sample
Benefit-Cost Analysis used to illustrate the methodology.




                                             11-3
Attachment 11- Benefit-Cost Analysis                                              Of Go- IR-03-00


IV.     FINDINGS

        A.      The USITC's Current Document Processing Business Environment

In order to establish a common baseline against which EDIS alternatives could be identified and
measured. CSC reviewed the current USITC document processing business environment and
gathered information to define its business processes in quantitative as well as qualitative terms.

The Office of the Secretary (OSlO) is responsible lor supporting the USITC's overall mission by
collecting and providing access to information regarding international trade to numerous internal
as well as external users. The USITC receives documents from law firms, from entities concerned
with trade, and from the public. USITC staff need access to these documents to conduct their
functions in research and analysis of trade issues brought forth to the USITC. In addition, parties
to cases brought before the USITC must have timely access to case-related documents. The
public also has access to certain unrestricted documents and information, including docket
information.

The current EDIS was acquired in 1995 lor OSE to handle the collection, storage, and
dissemination of documents, including the docket tiles for USITC cases and all official
publications. In 1999, the LJSITC developed EOIS On-Line (EOL) to provide enhanced public
access via the Internet to public document images and docket information from EDIS. EOL also
provides access to confidential documents to authorized USITC internal users. Currently, only
OSE and the Office of Investigations (OINV) scan documents for input to EDIS. The three types
of documents scanned to EDIS are: over-the counter documents received by OSE, documents
from industry sources collected by OINV, and evidential materials received at the completion of
trials conducted under the LJSITC'sjurisdiction.

The EDlS II solicitation states the USITC's requirements to acquire a system that will assist
movement from a paper-centric to all-electronic document processing and improve the economy
and efficiency of document processing as well as meet recent legislative laws, including those
legalizing the use of digital signatures for a variety of documents and transactions. The current
EDIS has a total of 2.3 million images contained in 81,000 documents including legal briefs,
research studies, and other materials related to the agency's quasi-judicial functions. As per
Section 11-5.8 of the RFP, an additional 198,000 images in 7,248 documents are expected by the
end of the current fiscal year (September 30, 2000), The USITC Sources Sought Synopsis issued
May 17,2000, states that the LJSITC inputs approximately 50,000 pages per mo nth.

Table I on the next page presents a summary of key information gathered about the current EDIS
operational environment in terms of processing volumes and related cost data. Data sources
included the RFP and EDIS II project proposal estimates provided by the Deputy Secretary. This
information was used to better understand the volume and type of image processing required for
EDIS replacement. (For more information about the EDIS II procurement, please refer to
Solicitation Number lTC-RFP-OO-OOO2.)




                                               11-4
             Attachment 11- Benefit-Cost Analysis                                                        OIG-IR-03-00


                         Table 1. Current EDIS       r recessing Volumes by Type and Related Costs



Over-the Counter           1.2 Million pages over     600,000 pages per year        Source: RFP Sec lIS-I
Ducuments                  past two years -
OINV Investigation         300,000 pages over past    APO releases - 110,000        Source: RFP Sec II 5-Due to a typographical
Documents                  two and one-half years     images or 60,000     pag~s    error, this number was shown as 30,000 ill tile
                                                      (double sided)                RFP
Evidential M-aterial       9 sets with average of     126,000 images                RFP Sec IJ 5-1
(Scanning contracted       21,000 images each         (Annual cost at $.09 per
out)                       over I 1,/2 years          image   ~   $IIJK per year)
Backfile                   2.3 million images (in                                   RFP Sec IJ-5.8
                           81,000 documents)
One-year .additional       198,000 images (in         50,000 pages per month        Two sources are approximately consistent. RFP
images                     7,248 documents) over      or 600,000 per year           data is estimate fa- last 4 rnmths ofFY 2000.
                           4 months - RFP Sec IJ-     (Sources Sought
                           58.                        Synopsis, Mod. 5/17/(0)
Users                      25 concurrent;   500~                                    RFP Sec 11 5-1
                           1000 authorized listing
Docueech /I (lease                                    Total costs   ~   $177,400    It is not clea how to obtain theamount of
$87,000 plus labor - 2                                Source: OSE                   savings used in EDIS proposal ($1SDK to $450K
FTE at $4;;'000)                                                                    per year} from these total annual costs.
Labor rate                                            $19,61111Our(Average          Source: OSE Rough approximation. Not based
(Administrative)                                      grade GS8, Step 3 plus        on hisroricallabcr and fringe data fr0111
                                                      20% benefits)                 Personnel Office
In-house Processing                                   $07 per page (23 pages        Source: OSE Rough approximation. Not based
or Throughput                                         per 5 minutes or 276          on historical infcrmation. System performance
                                                      pages per hour)               data not available
Imaging Centraetnr                                    $,09 per page                 Source: OSE Amount validated        ~   invoice'>
rates (unit cost per                                                                from conn-actor.
image)
Docutech Pr-inting                                    $009 per dick (image)         Rough approximation bused     On   anecdotal
costs                                                 for 100,000 images per        information from Printing department
                                                      year. Source: OSE
APO Release                                           1,000,000 images printed      Rough approximation based on anecdotal
Distribution costs (10                                plus $4500 mailing costs.     information, not on past historical data
parties per release)                                  Source: OSE
Annual Subscription                                   $70,000 Source: OSE           Amount used to measure customer satisfaction
to LexuslNexus                                                                      in EDIS proposal. Could nol validate", a
                                                                                    measure of actual customer use or level of
                                                                                    services provided.


             It is important to note that most of the data described above were derived, estimated, and
             manually calculated with extraordinary effort by the Deputy Secretary, As noted in Table I, the


                                                                   II-5
Attachment 11- Benefit-Cost Analysis                                              OIG-IR-03-00


amounts derived from the RFP and other sources were rough approximations based on anecdotal
rather than historical data. Although the current EDIS system provides abundant data regarding
daily transactions and error reports, summary reports containing management information about
tbe system, its performance, and, most important for this analysis, its operatio"-al costs, are not
readily available.

        B.      Validation of Initial Proposal with Current Operational Cost Data

After gathering information about current EOIS business processes, CSC conducted a review of
the initial proposal for EOIS II and the supporting data used in the original Cost-Benefit Analysis
prepared for the IRMSC.

The EOIS II replacement recommendation was based on benefits resulting from projected savings
in six specific areas:
• Electronic APO Releases
• Electronic Filings
• Scanning Efficiencies
• Lower Technical Support Costs
• User Friendliness, and
• Public Access.

CSC reviewed EOIS proposal data with OSE and other stall' to determine the basis-of-estimate
(BOE) for savings and benefits for each of these areas. This task was seriously limited by the lack
of complete and reliable data as indicated by the notes column in Table I. Although additional
operational information and basis-of-estimate data were requested and some data were provided,
it was not possible to validate the accuracy and reliability of the original Cost-Benefit Analysis
prepared for thelRMSC, Spcci fie items are discussed below.

Findings. Generally, the EOIS II replacement recommendation and calculation of proposed
benefits were based on estimated savings and cost reductions that were determined without
llQIlIying a standard process or guidelin~ ,for evaluating Information Technology investments.
Furthermore, current EDlS operational baseline costs and alternative options to EOIS were not
included in the original proposal. Complete and accurate data about overall system performance,
operations and maintenance, and/or independent sources of data to confirm savings were not
available or provided within the time frame of this study. Additionally, the original analysis was
found to contain inconsistencies with the RFP and other information sources (See Table 1) as
well as benefit-cost methodology deficiencies that would require resolution prior to completion of
a valid Benefit-Cost Analysis.

Some of the factors that restricted validation of the data used in the original proposal and its
proposed benefits/cost savings are summarized below.

    1. Basis-of-estimate (BOE) data was not available or defined. Therefore, the numbers
       used tor determining annual savings were not replicable, documented, and consistently
       applied.



                                               II-6
Attachment 11- Benefit-Cost Analysis                                               0lG-IR-03-00


   L    llaseline (Year 0) operational costs were not used or defined. It is not clear how
        savings were determined for each area in the EDiS proposal. According to the Director of
        DIS the approach was based on "anticipated differences." It is not clear what baseline
        was used to calculate such "differences."
   3. A well-defined Benefit-Cost Analysis that complies with standard and/or OMB
      guidelines was not followed. For example. although according to the Director of DIS,
      NPV was used in the analysis, a discount rate was not applied. Therefore, the total
      investment and savings amounts are not discounted over the selected life cycle period (4
      years) as required by a valid Benefit-Cost Analysis. Furthermore. the process used for
      return-on-investment (ROI) determination was not documented.
    4. Assumptions and constraints regarding savings were not well defined nor
       documented. Examples: (I) The proposal assumes significant savings from reducing/
       eliminating current APO release printing and distribution costs; it assumes a facile,
       immediate, and acceptable solution for all stakeholders without a study or report to
       substantiate it. (2) Technical support savings are assumed to translate into a specific level
       of continuing contractor support (one-third of current contract costs) that will be required
       by the new EDIS II system-again without supporting data. (3) Fixed labor costs (or the
       lack of consideration of potential savings due to USITC staff reductions) are unexplained
       yet fundamental constraints. OSE staffing levels were assumed to remain the same
       throughout the total period of analysis (four years). Therefore, no benefits were derived
       from staff reductions or increased produc tivity.
    5. Lack of alternatives. Alternative scenarios or solutions that apparently were given some
       consideration by the USE were not documented or included in the Benefit-Cost Analysis,
       e.g., electronic distribution of documents.
    6. Lack of consideration of other factors. Factors that could impact current and future
       operational costs or produce savings (benefits) were apparently not seriously considered
       and included in the analysis, such as: business process reengineering for improved
       productivity, error and rework reduction, staff training, increased volume of direct,
       internal electronic document submission, processing improvements, system
       enhancements, lease vs. purchase of systems, and/or partial or complete outsourcing of
        services,
Addressing the items described above would have ensured a more consistent and comprehensive
Benefit-Cost Analysis.




                                               II-7
Attachment 11- Benefit-Cost Analysis                                             OIG-IR-03-00


        C.      Methodology Applied to Benefit-Cost Analysis

In view ofthe above constraints, CSC conducted a high-level, sample Benefit-Cost Analysis that
attempted to determine estimated baselines costs and to identify some possible alternative
scenarios to the EDIS II procurement. Using the data gathered and analyzed in the preceding
sections, a sample Benefit-Cost Analysis was performed that followed a standard methodology
and OMB guidance more closely and included the comparison of ED IS alternatives or operational
scenarios.

A brief overview of the CSC approach and a description of the various alternative scenarios
considered are presented in this section. Please refer to Appendix A tor more information and a
step-by-step benefit and cost calculations that were applied to each scenario considered.
Appendix A also provides definition of terms and more detailed descriptions of the methodology
used to prepare the sample report.

Tile alternative scenarios identified for tltis study are illustrative only and are u.•ed to
demonstrate an applicable Benefit-Cost Analysis methodolog». They are not intended to
represent all tirepossible alternatives to an EDIS II replacement nor do they represent "best in
class" technology solutions. In particular, it is important to note thut tile EDIS all-electronic
option tlrat would be fully compliant with GPEA was got included in the sample analysis
because CSC did not have enough valid information to accurately determine. analyze, and
compare tire full benefits and costs of this option. Evaluation of state-of-the-art technologies
used by existing imaging systems and recommendation of a technological solution to USITC
were not within tirescope and tl me limits of this CSC study.

Analysis ofEOIS Alternative Scenarios .

.'1'0 facilitate comparison of benefit-costs, the sample analysis conducted by CSC generally
adopted the same basic assumptions and constraints that were applied to the original Cost-Benefit
Analysis, whether these were considered ""ell justifieA,xalid or inv"lig. CSC recognizes that a
more comprehensive Benefit-Cost Analysis would have to challenge and/or validate those basic
assumptions by conducting agency-wide, cross-functional group interviews, independent
alternatives assessments, and by gathering more accurate cost and performance data than were
available for this study.

Table 2 on the next page provides a brief description of the four scenarios analyzed. Yearly costs
and benefits for each scenario were calculated and compared. For estimation purposes, salary.
and other operational costs were assumed to be those provided. Following the descriptions, each
scenario's key contributions are briefly summarized.




                                               11-8
Attachment II" Benefit-Cost Analysis                                                     OIG-IR-U3-UU



                                 Table 2. Description of Scenarios

                  i;L
Status Quo          -Standsnll    option.    no   business   -All O&M costs rernam stable or may
(Current            change or improvement                    increase due to increased maintenarce
EDlS)               -EDIS hardware (HW) and software costs;
                    (SW) maintained;                         -Cusromer Satisfaction may decrease
                    -Staffing level stable
EOIS Plus           -Enhancement       option;    minimal    -Cost of SW modification and HW upgrade
                    business change necessary          Increase
                    -Current HW and SW "'0 modified to -Acditional contractrr support required
                    address processing inefficiencies and    -Some    benefits result from improved
                    error rate                               precessing efficiency and reduced error
                    -Staffing level and functions remain     rates
                    unchanged
EOIS II             -Replacemenr option; major business      -Cost of investment ($300,000+) plus new
                    change required                          O&M costs over lifecycle
                    - HW/SW as per best offering that        -Benefits result from improved processing
                    meets all #1 requirements in RFP         efficiency, reduced error rate, elimination of
                    -Staffing level remains stable but       duplication/ distribution of documents,
                    reallocation of functions and training   reduced paper handling via electronic
                    necessary                                submissions; staff time reallocation
Outsourcing         -Maintain current system and staff to    -Cost of contracting-out imaging services
Document            prepare,   index     and   distribute    will increase
Imaging             documents                                -Some benefits result from availability of
                    -Contract out an imaging (scanning)      staff time for reallocation of functions;
                    services                                 redueedO&M costs of imaging HW/SW.
                    -Minimal business mange required


Scenario L- Status Quo is to continue operating the current system. This option would avoid any
significant investment. However, this option docs not address the processing and technical
limitations of 3 system approaching obsolescence. Nor docs this option advance the goals of
GPEA to move towards acceptance of electronic dowment submissions and use of electronic
signatures. This scenario should only be considered in the event the USITC faces an extreme
reduction in funding.

Seenarln 2- EDlS Plus would maintain the USITC's current EDIS system but would make
sufficient investment in software and hardware improvements to address the limitations of the
current system. Some productive increases would be gained but it also would not move USITC
towards fully meeting the objectives of GPEA. This option would require some investment of
funds for system enhancements and training.

Scenario 3, ED'S II supports the current solicitation for an EDIS II system. In accordance with
the analysis of benefits and costs (see details in Appendix A), this scenario provides more benefit
to the USITC than the three other scenarios. As such, within the constmints of this evaluation,



                                                   lJ,9
Attachment 11- Benefit-Cost Analysis                                             0IG-IR-03-00


this option potentially provides a higher return on investment than the other three. However, this
scenario would not llWVC USITC toward fully meeting the objectives ofGPEA.

Scenario 4- Outsourcing would contract-out all image-processing functions currently performed
in-house. This scenario would reduce the cost of in-house image processing but would
significantly increase the cost of contractual services. Impact on overall document processing
would also be low because this scenario assumes minimal change in the current operational
environment. This scenario would not contribute in any manner towards fully meeting the
objectives of GPEA.

Findings, The original Cost-Benefit Analysis provided to the IRMSC should have applied the
OMB-recommended approach to support its recommendations. Although the data used could not
be verified and validated, CSC was able to identity benefit and cost categories for each EDIS
alternative scenario and to translate these into quantifiable measures or reasonable estimated
values for each. CSC's sample Benefit-Cost Analysis clearly demonstrates the value of the
methodology because the analysis can provide valuable insights and information to decision
makers. In support of this approach, a number of tables are presented in Appendix A that provide
additional details resulting from application of the Benefit-Cost Analysis methodology to these
sample scenarios. These tables include a summary scenarios comparison table and extensive
detail on the measurable costs applied to each scenario. A results summary table presents the
results of CSC's sample analysis including benefit cost ratios and return-on-investment (ROI)
determinations.




                                              11-10
Attachment 11- Benefit-Cost Analvsis                                              01 G-IR-OJ-OO


        D.      Compliance nf ED IS II with GPEA and Rehabilitation Act, Sec tion 508

The Government P~r~ork Elimination Act (GPEAl, PL 105-277, Title XVII, was signed
into law on October 21, 1998. GPEA is intended to improve customer service and governmental
efficiency through the use of information technology. This improvement involves transacting
business electronically with Federal agencies and widespread use of the Internet and the world
wide web (WWW) as commercial enterprises are doing.

By October 21, 2003, GPEA requires federal agencies to allow individuals or entities that deal
with the agencies the option to submit information or transact with the agency electronically,
when practicable, and to maintain records electronically, when practicable. The Act specifically
states that electronic records and their related electronic signatures are not to be denied legal
effect, validity or enforceability merely because they are in electronic form, and encourages
Federal government use of a range of electronic signature alternatives.

On April 25, 2000, OMB issued a memorandum for heads of departments and agencies
establishing procedures and guidance On implementing the GPFA and outlining several
objectives that agencies must meet.

        (I) Each agency must build on their existing efforts to implement electronic government
            by developing a plan and schedule that implement, by the end of FY2003, optional
            electronic maintenance, submission, or transactions of information, when applicable
            as a substitute for paper, including the use of electronic signatures when practicable.
        (2) Agencies must submit a copy of the plan to OMB by October 2000 and coordinate
            the plan and schedule with their strategic information technology planning activities
            that support program responsibilities consistent with the budget process (as required
            by OMB Ci rcular A-ll).

Currently, OIS plays a central role in facilitating the USITC's compliance with GPEA and is
preparing the information technology plan that is due to OMB by October 2000. This plan was
not available tor review. However, CSC did review a draft of the Strategic lRM plan as part of
this evaluation. Findings are reported below.

Table 3 on the next page compares each of the scenarios considered with respect to its potential
for compliance with GPEA,




                                              Il-ll
Attachment 11- Benefit-Cost Analysis                                                     OIG-IR-03-00


                 Table 3. Assessment of Scenarios for GPEA Compliance




Provide Option to    No-- Option not             Would require       No-Nor in RFP        Yes v-but
Submit               available to public or      change in policy    Functional          option limited
Electronically       internal user: limited to   &. enhancements     Rqmnts Would         to imaging
                     electronic submission       to current input    require change in   contractor only
                     (CD) of images.from         system              policy and new
                     contractor                                      system capability
Provide Option to    No - EDiS does not          No                  No                   No
Transact             provide for electronic                          Not in RFP
Electronically       transactions, such as
                     purchasing, payments.
                     registration, ere
Maintain records     Yes                         Yes                 Yes                  Yes
electronically
Accept electronic    No                          Win require         No--Not in RFP       Not
signatures or                                    change in policy    Functional           Applicable
alternatives                                     & enhancements      Rqmnts. Will
                                                 to current system   require change in
                                                                     policy and new
                                                                     system capability
Make Wide-spread     Limited Use-Current         Increased access    No-Not in RFP       No
Use of Internet or   EDIS public documents       would require       Functional
WWW                  are accessible using the    change in policy    Rqmnts Will
                     Internet and EDIS-On-       & enhancements      require change in
                     Line                        to current system   policy and new
                                                                     system capability
Secure Electronic    No                          No                  No                   No
Business
Tr-ansacdons
Provide Option to    No                          No                  Yes-Will             No
Maintain                                                             facilitate
Information                                                          electronic
Electronically                                                       maintenance of
                                                                     document
                                                                     records
SUMMARY              Limited                     Supports            Limited              Not
                     Compliance                  Compliance          Compliance           Compliant

Findings: The USITC is positioned to take advantage of information technology advances and
achieve compliance with GPFA The EDlS II RFP explicitly calls for a web-based interface and
the electronic filing and exchange of documents (Section 11-5-6 and 11-5.7). However, compliance



                                                 Il-12
Attachment 11-Benefit-Cost Analysis                                                0IG-IR-03-00


should not be incidental to an EDIS 11 replacement but a fundamental feature in its design and
functionality. Full compliance will require USITC to consider significant changes to the way it
"does business" including changes in policy to permit and promote acceptance of electronic
transactions, submissions, and acceptance of electronic signatures--- all key provisi ons of GPEA.

In its review, CSC noted that the USITC had not yet prepared a draft or final version of its plan
for complying with the GPEA. This plan is due to OMB by October 2000. CSC did, however,
review the draft of the USITCs Strategic Plan tor Information Resources Management (lRM).
This plan identifies as its highest priority the support of agency strategic objectives and five key
operations as defined in the USITCs Strategic Plan. These strategic areas include:

•   Import Injury Investigations
•   Intellectual Property-based Investigations
•   Research
•   Trade Information Services
•   Trade Policy Support

However, the current draft of the IRM Plan is incomplete and does not appear to be in
compliance with GpEA. The Plan does not document how current and planned information
technology investments will support the agency's strategic areas and their supporting programs.
for example, the draft version addresses Title VII Investigations but does not address other
strategic areas. There is only a brief reference to ED1S IJ although this pending procurement
clearly calls for a major information technology investment in a new system that can directly
support electronic filing and handling of documents critical to the overall mission of USITC.
Additionally, there is no mention of planned enhancements to the information technology
architecture although a number of these are described as a "[alt accompli" in the EDIS II RFP
document (Section II, page 8).

Significant additional effort will be required to ensure that USITC's IRM Plan meets GPEA and
serves as a well-structured blueprint for future information technology investments.

The Rehabilitation Act Amendments of 1992, Pil., 102-569, revises and extends the programs
of the 1973 Acts. It establishes in Section 508 a set of guidcl ines for the electronic and
information technology accessibility. The guidelines prescribe that individuals with disabilities
can produce information and data and have access to information and data, comparable to the
information and data, access, respectively, of individuals who are not individuals with
disabilities.

On March 31, the Access Board published a Notice of Proposed Rulemaking on Standards for
Electronic and Information Technology implementing Section 508 of the Rehabilitation Act
Although specific compliance criteria were to be published in early August 2000, these have been
postponed until such time as the Administrator of General Services and the Access Board
complete and promulgate compliance guidelines. Table 4 on the next page presents an
assessment of each scenario for compliance with the Rehabilitation Act! Section 508.




                                                 11-13
Attachment II- Benefit-Cost Analysis                                              OIG-IR-03-00


     Table 4. Assessment of Scenarios for Rehabilitation Act I Section 508 Compliance

                                                                                      Outsourcing
Rehabiliation Act     EDIS or                 EDIS Plus           EDIS II             Document
                      Status Quo                                                      Imaging
Provide Equal         Not Compliant-          Possible- Will      Yes-RFP             Not
Access to             EDIS has no provision   require             supports USITC      Applicable
I nfe rmation and     currently to            enhancements to     intent to comply.
Data to Individuals   accommodate    USCTS    current system
with Disabilities     with disabilities


Findings: Based on the current web-site and EOL, there is little evidence that the USITC has
actively sought to provide equal access to information and data 10 individuals with disabilities.
Because the EDIS II RFP solicitation called lor compliance with the Rehabilitation Act and
Section 508, the various contractor service offering are required to address how they would
ensure compliance with this requirement in their proposals. Therefore, the USITC has
demonstrated its intent to comply with the Act at least as far as this procurement is concerned.
However, the USITC can anticipate that new implementation guideliocs from GSA and the
Access Board will require it to demonstrate greater awareness and consideration of currently
unmet needs and to develop action plans to provide greater aecess to information by individuals
with disabilities.




                                              II-14
Attachment 11- Benefit-Cost Analysis                                           OIG-IR-03-00


V.        CONCLUSIONS

Based on our evaluations, we draw the fa [lowing conclusions:


     1.     The EDIS II proposal and its Benefit-Cost Analysis were not prepared io
            accordance with the accuracy, rigor and depth of analysis necessary to meet
            federal guidance. Specifically, the analysis and justification for an EDIS
            replacement failed to address USIIe mission and business goals, did not conduct an
            analysis of EDIS scenarios, and did not follow OMB guidelines for assessing
            Information Technology investments. Thus, the IRMSC initial decision to limit its
            approval only to the issuance of an RFP (and not a carle blanche approval to proceed
            fully with the EDIS II procurement) is supported by our findings.


     2.     The USITC does not have well-defined, well-documented processes to guide the
            agency's Information Technology investment decisions in accordance with
            federal guidance. Although an internal USITC approval structure has been
            identified, only two recent Information Technology procurements have been prepared
            and submitted for IRMSC approval using a loosely structured Information
            Technology evaluation format. Instructions for completing the form and for
            providing supporting basis-of-estimate information have not been developed and
            approved. Consequently, OSE staff had little guidance and information on how to
            prepare a more complete justification for an EDlS replacement. In addition. although
            there are abundant system-generated data ahout individual EDlS transactions,
            system-wide management, operational, and performance metrics and customer
            feedback are not tracked. reported, and evaluated on a regular basis by IRM and/or
            OSE management. Furthermore, EDIS operations and maintenance data are not used
            to monitor and manage costs, system performance and to establish service
            improvement goals. Due to the lack of long-term, comprehensive business unit and
            Information Technology architecture planning documents, recent procurements have
            been directed to address more immediate, isolated needs, e.g., Y2K, EDIS
            replacement.


     3.     Although there is some general awareness of federal guidance, there is little
            evidence of agency-wide inttiatives and on-going effort applied to addressing
            legislative priorities and meeting these iu a timely manner. In regards to
            Information Technology, it appears that required agency-wide strategic plans have
            been or are being prepared to meet the minimum letter of the law, and not the full
            spirit of federal legislative mandates in regards to IT. Thus, important USITC
            planning documents, such as the draft IRM Plan and the GPEA-required Plan, were
            found to be fragmented, andlor incomplete. Alignment of IRM plans with USiTC
            "lines of business" was not evident. Ownership and responsibility for preparation,
            update, and approval of these important planning documents are also not clearly
            established.




                                             11-15
Attachment II- Benefit-Cost Analysis                                               OIG-IR-03-00



VI.        StlGGESTlONS FOR MANAGEMENT CONSIDJi:RATlON


      1.   Develop and implcment tlSrrC-wide process for preparing, justifying, evaluating,
           and approving future Information Technology investments using OMB and GAO
           capital planning guidelines for program effectiveness. USITC should proceed rapidly
           to implement plans to establish a ClO position that can address Information Technology
           planning, implementation, deployment, and operational needs for the agency as a whole
           and ensure the alignment of Information Technology with the agency's mission and
           business goals.


      2.   Based on the careful evaluation of EDIS II RFP responses, approval of a fully
           compliant enhancement or replacement of EDIS should be ma<k,,,onditional to
           !JSITC undertaking, in panllel, a comilrehensive business process re-engineering
           effort of its documenLllandling processes.      USlTC, and OSE in particular, should
           initiate a major review and redesign of its business processes to better align its
           information services with USITC strategic direction, business goals, and federal law,
           especially ITMRA (Clinger-Cohen) and GPEA. If none of the RFP-based offerings
           provide for complete, long-term solutions that meet federal legislation and guidance, the
           IJSlTC should choose to modify its current narrowly focused EDIS replacement
           procurement approach to encompass a more comprehensive, agency-wide business-
           driven solution.


      3.   Complete the GPEA implementation plan for submittal to OMB by October 31,
           2000. The preparation of the GPEA implementation plan should guide the procurement
           of an EDIS 11 system. It should be coordinated with the revision and updating of the
           Strategic IRM plan. Such coordination will facilitate better alignment of Information
           Technology investments with the IJSITC's strategic objectives and with the GPEA
           legislation.


      4.   Become a model agency and leader in electronic government initiatives related to
           legal documentation processing. Consider the possibility of becoming a federal pilot
           for innovation. As a small, quasi-judicial agency, USITC could seek to implement
           innovative electronic information and web-based technologies tor improving access and
           timely processing of all legal documentation, including acceptance of electronic
           submissions and electronic signatures. As a relatively small government agency with a
           well-defined scope of work, IJSITC is well positioned to initiate "a new way of doing
           business" by breaking down paper-burdened barriers to global information exchange
           among its customers. users. external organizations and the courts.




                                                1I-16
Attachment II- Appendix A-Sample Benefit Cost Analysis                             OlG-IR-03-00


Appendix A-Sample Benefit-Cost Analysis Methodology

This Appendix includes a brief general description and a detailed example of the Benefit-Cost
Analysis methodology that was applied to the four EDIS II alternative scenarios described in the
report.

General Information and Definitions.

Benefit-Cost Analysis is the interdisciplinary and systematic blending of tools and techniques of
finance, management decision theory, economics, and related fields to make choices. Modern
Benefit-Cost Analysis is based on the concepts of valuation and estimation. Benefit-Cost
Analysis can be performed at all stages ill a project/decision life cycle. For example, it can be
applied to answer any of the following questions.

    •   Which project should we pursue? (to meet the same goal)
    •   Which method should we use to meet a requirement or set of requirements?
    •   Should we make or buy a sy stem?
    •   Which proposal should we choose?
    •   Which project was most effective? (after-the-fact analysis/review)

Benefit-Cost Analysis is important to decision-makers in an organization because: 1) resources
are limited; 2) most organizational decision making involves resource management (human,
capital, personnel); and 3) cost and benefits and their timing vary according to which method is
used to pursue an organization goal.

The primary objective of a Benefit-Cost Analysis is to determine which scenario in a decision
provides the greatest net benefits. Also, it can be used to obtain the most benefits with the least
costs. This is usually indicated by the scenario with the highest benefit-cost ratio or return-on-
investment (ROt). The scenario with the highest Net Present Value (NPV) may not be the
scenario with the highest benefit cost ratio, although the two methods often yield the same
scenario choice.

The methodology used tor this Benefit-Cost Analysis is based on present value (PY) analysis,
which is among the most effective ways to compare costs and benefits, The present value is the
total amount that a series of future benefits or costs is worth now. After present value benefits
and present value costs are calculated, the NPV of each of the alternatives is calculated and serves
as the basis for comparing alternatives. The methodology can be summarized in tour basic steps:

Step 1: Identify scenarios (or options) of different levels of investment
Step 2: List the benefits you want to consider and their importance
Step 3: Determine the dollar value of the benefits (from Step 2) and determine the costs tor each
period of the decision lite for each scenario (given in Step 1)
Step 4: Compare the results of Step 3 together to yield a recommendation




                                              II-A-l
Attachment Il- Appendix A-Sample Benefit Cost Analysis                                 0IG-IR-03-00


Discount factor - This is a figure representing the level of return that one could have received if
capital is used for other projects or investments. This value can be represented as a percent or as a
decimal. This value decreases present value costs and present value benefits for multiyear
decisions, The discount rate applied to the analysis was 3.85%(OMB Circular A-94, App C).

 DecisionlProjeet Life- The project's decision life or period for analysis, four years. was selected
 to be consistent with the time period selected in the original proposal prepared by USITC.
         Note: Present Value (PV) and Totals are calculated onlyfor the years tha! are within the
         project life. 1/ the project life is 5 years. Year 0 is thefirst day ofthe decision ille and jl'
         no! discounted. It ends on the 3(,.11h day, Year I hegins about the 3651h day ofth« project
         and ends about the 730lh day ofthe project,

 Benefits - Two categories of benefits exists - those that can be measured (quantifiable) and those
 that cannot be measured easily (non-quantifiable). Examples of measurable benefits are: direct
 savings, revenue from sales, or staff time reallocation. In the case of EDIS, each benetit may not
 apply to all alternatives, However. the benetits listed are considered the most important to the
 EDIS procurement and the agency.

 Payback period is the number of years required to recoup the original investment. Thus, the
 payback period is the first point in time when benefits exceed all expe nditures,

 Return on Investment is the same as the Benefit to Cost (BIC) Ratio. 11 is a measure of the
 amount of benefit relative to the amount of investment for an alternative, It is calculated by
 dividing the cumulative discounted benefits by the cumulative discounted investment costs. A
 positive ROI (ROI greater than I) indicates a desirable economic advantage to the alternative.
 When ROI is equal to or less than I, there is no economic advantage to the alternative. (The ROI
 is typically expressed as a percent. When the ROJ is greater than 100% an alternative is
 considered cost effective. For example, if ROI is 110% this implies that the project is cost
 effective since for every dollar of costs spent, benefits of $ 1.1 0 are realized.)
                                  Calculatinns lIsed in this Analysis

                                         r=discount tale
                                         p=period
                                         N=projecllife
                                         B=benetl1 value for period



 PV of a Cost>      N
                   p={J
                          l
                   L (I C+ r y J  P
                                         r=discount rare
                                         p=period
                                         N=project life
                                         C=cost for period
- - - - - - - - - - - - - - - ' - - --         ~- - - - - -         --   ._.


 NPV of an Alternative        ~
                          Sum ofPVofBenefits - Sum ofPVofCosls
                                                     ---
                                                   -~_      ----
                                                         ... -

                                                         To Express ROI as a percent
                            SumofP VBemfits
 Benefit-Cost (B/C) Ratio = S    ,ID I7C "'                     NPV
                              umop' r 0,x8               =                 x 100
                                                                    SumojPVCosis
~~---------------~------------




                                                 1I-A-2
Attachment II- Appendix A-Sample Benefit Cost Analysis                           OIG-IR-03-00


SAMPLE CASE: Methodology Appliedt!) Jo:D1S (:ost and Benefit ,<\nal'ysis_

Title:                           EDIS II Evaluation
Discount Factor Vsed:            385%
Project/Decision Lifceyclc:      4 years
Summary Objective:               To improve the economy and efficiency of USITC's OSE
                                 document imaging processing


Stakeholders: The results of this analysis are expected to be of interest to the following
stakeholders (persons and/or groups). Stakeholders are important in a Benefit-Cost Analysis
because they will either playa role in deciding which alternative will be implemented or they will
be impacted by the decisions during tbe project', lifetime.

EDiS Stakeholders
•   USITC Commissioners
•   USITC Secretary
•   USITC Deputy Secretary
•   OSE Staff
•   Office of Information Services
•   Office of Publishing
•   Office oflnvestigations
•   Office of General Counsel
•   All USJTC Divisions and Business Units
•   Law Firms/U sers
•   Contractors/Suppliers
•   USITC Office of Inspector General

Project Objectives: Based on information gathered from interviews, USITC documents and the
RFP, CSC identified the following set of project objectives for the EDIS evaluation. These
objectives can be used by USITC to define set of performance metric, to evaluate EDIS II or
whatever scenario is selected. (Sample list ofEDIS II measures)

•   To increase all-electronic document processing
•   To improve imaging processing efficiency (throughput per hour)
•   To reduce processing costs per image
•   To reduce processing backlog (number of days)
•   To reduce processing errors (errors/day)
•   To reduce retrieval time (time lapse from user request to retrieval)
•    To reduce rework (reprocessing low qual ity irnages.)

Assumptions: To facilitate comparison of benefit-costs, this sample analysis generally adopted
the same assumptions and constraints of the original Benefit-Cost Analysis provided to the
IRMSC. CSC made no determination as to whether these assumptions and constraints should be
considered well justified, valid or invalid. CSC recognizes that a more comprehensive Benefit-



                                              II-A-3
 Attachment 11- Appendix A-Sun/pIe Benefit Cost Analysis                          OIG-IR-03-00


 Cost Analysis would have to challenge andlor validate the basic assumptions by conducting
 agency-wide, cross-functional group interviews, independent alternatives assessments, and by
 gathering more accurate cost and performance data than were available for this study.

 The following assumptions were made in conducti ng this analysis:
 • OSE staffing levels will remain the same over project life (4 years)
 • System operation costs of current system will remain the same
 • EDI S performance will remain stable; not serious degradation of current service levels
 • In-house duplication can be eliminated without impacting other divisions
 • Contracted imaging services will be available at current rate ($.09)
 • Processing performance can be im proved from I % up to 10%
 • Electronic tiling will be acceptable form of input (policy change)
 • OSE stafffunctions can be reallocated positively (benefit).

 Alternative Scenarios:

 The following four scenarios were selected by CSC because they all met a set of basic
 requirements (to provide document handling processing support to OSE).
         However, as noted in the main body of the report, the "GP£A" option,
         which provides an all-electronic scenario fully compliant with GPEA, was
         not included in the sample analysis because sufficient reliable data were
         simply nut available.

 Each of the scenarios selected is expected to differ in the amount and/or timing of benefits. The
 types. amounts and timing of costs associated with each alternative are also expected to differ.



 1. Status Quo                  Continue to Use EDIS as is
 2. EDIS Plus                   Enhance current EDIS system to reduce errors and facilitate
                                electronic input ($1 OOk investment)
1-----_.-.
 J. EDIS II
      =-c'----_ _
                                Replace EDIS with EDIS II as per RFP ($JOOk investment)
 4.0utsource                    Outsource (contract out) all document imaging




                                              II-A-4
 Attachment II- Appendix A-Sample Benefit Cost Analysis                                    0lG-IR-03-00


 Quantitative Benefits: The following eight categories of benefits were identified by esc as
 directly quantitative and applied to compare the various alternatives. Values were assigned to
 each alternative for each year of the project life. These values were the basis for present value
 calculations.
                                            Table A-I
                                      Quantitative Benefits



 Image Contract           Reduce cost of contracted services     $3&.000' (Amount provided by OSE)
 Savings
 Rework                   Reduce cost of rework (error
 Reduction                reduction)
 Processing               Decrease cost of documents
 Performance              processing (efficiency. throughput)

 Staff/Resource
 Reinvestment
 User Cost
 Reduction
 Data Entry
 Reduction
 Document
 Distribution
 Efficiency
 Maintenance              Decrease cost of system
 Savings                  maintenance contract



 'Sufficient substantiation to independently
 Sources of Data- OSE and OIS.

 Indirectly Quantifiable Benefits: The following benefits, which are difficult to measure, were
 identified as indirectly quantifiable benefits. Values were assigned to these based on "relative
 weight" of importance in the evaluation and compared to measurable benefits described above.
                                              Table A-2
                                        Qualitative Benefits

 Improve Customer            Provide faster, more accurate               Related to I % improvement in
     ,~   ..   ~.,
                             retrieval of documents
 Satisfaction.. _---_.- .. _-.                                           efficiency and/or reduction of errors
 Facilitate Electronic       System will be able to handle Related to 5% improvement in
 Submissions                 electronic filings from                     efficiency through reduced processing
                             internal
L.,-,::-.,----_ _.,----_,--.L_        and external users                 volumes
                                 _--,----.,--------:_.,--------:.,-----'---_  _-:-::-----,-              . ._
  ·Sufficient substantiation to independently validate or verify data was not provided.
 Sources of Data- OSE and 01S.




                                                    II-A-5
Attachment 11- Appendix A-Stlmpfe Benefit Cost Analysis                             OlG-IR-03-00


Costs: Table A-3 summarizes EDIS cost categories and operations and maintenance (O&M) cost
drivers as provided to us by OSE and OIS and used in our sample analysis. We 110te that there
arc deficiencies in this cost data in that accurate historical dala was not used La compute O&M
costs and that aot all relevant costs were incl uded. For example, labor and operations costs in
Office of Investigations were not included.

                                          Table A-3
                                     ED IS O&M Costs

IT O&M Costs
Server System Maintenance
HI> HW lOS Maintenance                      $5.000              $5,000*
f'FS SW Maintenance                         $21.000                   $0 Discontinued 12-"9")


Scanner Systems Maintenance
Scan Station H\V Maintenance                $10,000            $10,000*
Supplies and Consumables                    $5,000              $5,000*
SW Maintenance                              $0                       $0*


System Enhancements
Ancillary servers/ SW/ EOLIweb              $7,500
                                                               $20,1100"Subtotal
IT SUI' port Staff
1FT Contractor Programmer                   $100,000          $J35.000* Same as USITC CBA
.25 FTE Sr. Computer Scientists             $25,000            $25,000"
                                                              $160,OOO*' Subtotal


TOTAL tTO&M                                 $173,500           $180,000


OSE Costs
EDIS Processing Staff Costs
2 FTE Management ($40/ltr)                                     $166,400
12 FTE Admin/Clerical ($ll)                                    $748,800
                                                              $915,200- Subtotal


Contract Out Imaging .09/imagc                                 $38,000"
TOTAL EDlS Costs                                            $1,133,200"


OTHER NON~EDlS COSTS
In-House Duplication Cost                                     SI50,OO()llc Same as USITC Be

*Sufficient substantiation to independc ntly validate or verify data was not pro vided,
Sources of Data- OSE and OIS.




                                            ll-A-6
         Attachment 11- Appendix A-Sample Benefit Cost Analyst"                                                                                                    OIG-IR-03-00


         Benefit-Cost Breakdown for Year One: Results are provided in Table A-4 - Table A-6 for
         each alternative listed. Values used to quantity costs and benefits are based on data provided by
         USITC staff or amounts previously used by USITC in the original proposal justification
         document Where data were not provided, CSC estimated an amount that was derived from
         provided information for this sample analysis.
                                                     Table A-4
                                      Year One Cost Summary* By Scenari 0




         Stllt~s   Quo          $9 I 5,2/JO                 $3&3J1l0          $<)                 $2i1JltJlI        $135.1)()11           $\1                $150JI(1)       $1,25K.2\1lJ

         EDIS PILJ-,            $9 I 5,2111J                $<)               $11),00,)           S2\JJlOll         $lJ5,1l0i)            $1 UlI,111I1I      $150,(1011      $1,330,101)

         EDIS II                $915,2IJO                   $11               $5,1l00                               $90,IHKJ              $30,)))1)0         $0              $[ ,330,200

         Outsuerce              $1) 15.2110                 $100,1100         $11                 $llJ,llllfJ       S L] 5,[)e)ll         $11                $150,(I(J1l     $l)2(J,2\llJ



                                                               Table A-S
                                          Year One Quantifiable Denefit* Summary By Scenario
                                           'j         "'-'7;"                                                                            "ft'"




Status   QIIO            $11                    $11                    so               $11                $11                $11                    $11             $0             $(J

EDIS Plus                $38})()U               $IO"IIMl               $45,lrtJO        $I\),()(~)          SII              $Il                     $0              $0             $J I}J,O(JO

EDiSlI                   $.38,000               $5,1HIlJ               $45,11110        $45}100             $5,UOO           .$22,50n                $1511,IItIO     $45.!il)()     $.355,5(J(r
Uutsnurce                $38,(JlHJ              $5,lJlllJ              $\1                                  $11               j.1J                   so              $0             $4R,IJOO



                                                                     TableA-6
                                                Year One Qualitative Benefit* Summa ry By Scenario
                                                                                                                                    j   :'W::~2"'"




                                                         Status Quo                 -$lll,n{lU   "'*     $0                  _$10,000

                                                         EDIS Plus                  $13,464              $12.11'             $25.5~2

                                                         ElliS II                   S46,471               S4',824            $X8,2'.14

                                                         Outscurcc                  $(f,275              S5,(j47             $11,922


                                                         ** Approx       1% Labor costs


          *Sufficient SUbstantiation to independently validate or verify data was not provided.
          Sources of Data- OSE and DIS.




                                                                                              II-A-?
Attachment 11- Appendix A-Sample Benefit Cost Amtlysls                                 OIG-IR-03-00


Alternatives Comparison - Table A-7 present the total costs and benefits by year for each
alternative scenario. Net Present Values (NPV) and the Totals for the project life are also
included in both tables.
                                         Table A-7
               Comparison of Benefits and Costs for Four Alternative Scenarios


BENt<:FITS
Status Quo             $0               -$10,000        -$10,000     -$10,000    -$10,000     -$40,000
EDIS Plus              $0               $128,582        $104,863     $104,863    $104,863     $443,170
EDIS II                $0               $443,794        $596,719     $596,719    $596,719     $2,233,951
Outseurce              $0               $59,922         $59,922      $59,922     $59,922      $239,686


COSTS
Status Quo             $1,258,200       $1,258,200      $1,258,200 $1,258,200    $1,258,200 $6,291,000
~DIS   Plus            $1,258,200       $1,330,200      $1,270,200 $1,220,200    $1,220,200 $6,299,000
EDIS II                $1,258,200       $1,330,200      $1,005,200 $1,005,200    $1,005,200 $5,604,000
Outsource              $1,258,200       $1,320,200      $1,320,200 $1,320,200    $1,320,200 $6,539,000
Assumptions:
I. A negative benefit of -$10,000 was- assigned to the Status Quo Scenario to indicate a decrease in
customer satisfaction due to increasing processing errors and delays caused by a degrading EDIS system ..
The amount was derived by calculating approximately I% of the OSE provided total labor costs
($915,200) or the equivalent ofa 1% decline in staff productivity.
2. Year 0 assumes equal baseline costs across all scenarios.
3. Breakdown of cost categories used to determine Year I Costs and Benefits are presented in Table   A~l   -
A-3.

Results:

Table A-8 provides the NPV and ratios for each alternative scenario and identifies the alternative
with the highest Net Present Value. This Table also contains the Return-On-Investment
calculation for each alternative scenario based on the informati on provided.
                                             Table A-8
                             Sample Results of Benefit- Cost Analysis




Status Quo          -$36,427        $5.841,526       -$5,877,953     -0.01      -100.62%     5
EDIS Plus           $404,830        $5,855,384       -$5,450,554     007        -9309%       5

EDIS II             $2,026,451      $5,232,858       -$3,206,407     0.39       -61.27%      5

Outsource           $218,280        $6,067,377       -$5,849,097     0.04       -96.40%      5




                                                   ll-A-8
Attachment 11- Appendix A-Sllmple Benefit Cast Analysis                           OIG-IR-03-00


In this sample, EDIS II provides the highest benefit-to-cost ratio among the alternatives scenarios
and represents the better return-on-investment in a shorter time period. However, this scenario
also is the most costly alternative from a cUITent budget outlay standpoint. Note that no scenario
provided a positive return on investment. A large contributing factor was the maintenance of
current levels of staffing. The major overall EDIS cost driver, labor costs, were not reduced in
any of the scenarios studied. Therefore, based on this sample, a significant effort will need to be
undertaken to re-engineer business processes to maximize benefits derived from improvements in
information processing efficiency and staffproductivity.




                                              Il-A-9
